SEC.gov |  Recreation and Welfare Association's - Individual Employee Parking Program
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Recreation and Welfare Association's - Individual Employee Parking Program
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
AUDIT MEMORANDUM No. 23
June 4, 2002
To: Jayne Seidman
From: Walter Stachnik
Re: Recreation and Welfare Association's - Individual Employee Parking Program
We conducted a limited review of the Individual Employee Parking Program managed by the SEC Recreation and Welfare Association (RWA).  The review responded to complaints about the distribution of the parking permits by RWA. Our objective was to determine if the RWA administered the program equitably.
During the review, nothing came to our attention to support the complaints about permits being issued unfairly (i.e., permits issued by other than the grandfather provisions, lottery, or chronological sequence of requests).  However, we believe that publishing information about the distribution procedures and the parking permit waiting list would inform Commission employees of the procedures and would allow employees to observe directly the fairness of the program's operations.
BACKGROUND
The Office of Inspector General recently issued an audit report concerning the Commission's oversight of the RWA (Audit 346).  In response to that report, the Commission assigned oversight responsibility of the RWA to the Office of Administrative and Personnel Management (OAPM).
The Commission allocates 80 parking permits to RWA (including one space at 901 E Street).1  The RWA pays the building owner $80 per space and provides parking permits to Commission employees for a charge of $100 per month.  The RWA uses the difference, less $12 for sales tax, to fund its programs.
PARKING PERMIT DISTRIBUTION PROCEDURES
When the Commission took over the Judiciary Plaza garage in October 1, 1993, it agreed to grandfather the 45 employees who were parking through the RWA and provide additional parking permits to the Association (now totaling 80 permits).  The RWA awarded the additional permits to Headquarters employees based on a lottery drawing, conducted after providing an invitation to all Headquarters employees to apply for one of the additional spaces.
Employees who requested parking but did not receive one of the additional spaces were placed on a waiting list maintained by RWA. Currently, if employees are interested in applying for a parking permit, they must send the RWA parking coordinator an E-mail requesting a place on the waiting list.
The RWA parking coordinator is the only RWA official involved in the administration of RWA's Individual Employee Parking Program.  There is no oversight of the program's operation or these procedures by RWA or OAPM.
The permit distribution procedures are not published and, generally, are not publicly available to Commission employees.
Recommendation A
OAPM, in conjunction with RWA, should publish a description of the RWA parking permit procedures and make them available to Commission employees (e.g., on the Commission's Intranet, an E-mail memorandum to eligible Commission employees).
Recommendation B
OAPM should ensure that either the RWA or OAPM effectively oversees the operation of the Individual Employee Parking Program.
PARKING PERMIT ASSIGNMENTS/WAITING LIST
We reviewed the current list of permit holders and the RWA waiting list to determine if permits awarded after the lottery were distributed in waiting list order (i.e., in the chronological order that requests were received).
Fifty permits were not associated with a waiting list number.  According to the RWA, employees grand-fathered in 1993 and winners of the subsequent lottery held these permits.  We reviewed the available documentation for these permits maintained by RWA.
The remaining 29 permits were assigned to employees from the waiting list.  We compared the waiting list numbers to the dates of the E-mails requesting a permit for a judgment sample of 20 individuals.  We found that the numbers assigned were in chronological order with the dates on the request.  The last number on the waiting list to receive a permit was number 146.2  The last number on the waiting list was 334; approximately 188 employees are presumed to be waiting for a parking permit.
The waiting list is not published within the Commission.  Consequently, employees who have applied for a parking permit must periodically contact the RWA parking coordinator to determine their status on the waiting list.  Moreover, the waiting list is not kept as a computerized file, limiting its utility for responding to information requests from employees.  To respond to information requests, the RWA parking coordinator searches through copies of requests received.
Recommendation C
OAPM, in conjunction with RWA and OIT, should ensure that the RWA parking waiting list is maintained as an electronic file (e.g., as an Excel spreadsheet).  The waiting list file should include all parking permits currently assigned and requested.  Each permit assigned and requested should include the employee's names, the date of the request (and assignment if applicable), and the sequential waiting list number.  When a parking permit is issued or an additional request is received, the waiting list should be updated.
Recommendation D
OAPM, in conjunction with RWA, should ensure that the information in the waiting list is made publicly available within the Commission (read only) and is kept up to date.
PARKING FEE PAYMENTS
RWA's policy allows employees to pay by cash, check, and electronic funds transfer (EFT); about half (38/80) of the permit holders pay by EFT.  The RWA Treasurer informed us that RWA is considering requiring all employees to pay by EFT.  EFT payments, rather than checks or cash, will improve management controls over the collection process, and reduce the administrative burden.
Recommendation E
To streamline the collection process and enhance its management controls, OAPM should encourage the RWA to implement its plan to require all participants to pay by EFT.
1  The Commission allocates additional parking to a variety of other users (e.g., disabled persons, carpools).
2  Some employees were removed from the waiting list without getting a permit (e.g., staff who resigned from the Commission).
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us